Audit Report 99-21
U.S. Department of Justice
Office of the Inspector General
Audit Division
MANAGEMENT AND ADMINISTRATION OF
THE COMMUNITY ORIENTED POLICING
SERVICES GRANT PROGRAM
99-21
Michael R. Bromwich
Inspector General
July 1999
* * * * *
TABLE OF CONTENTS
EXECUTIVE SUMMARY
INTRODUCTION
Background
Prior Reports
FINDINGS AND RECOMMENDATIONS
PROGRESS TOWARDS GOAL OF 100,000
NEW POLICE OFFICERSUnaccepted
Grants
Redeployment Under MORE
Grants
Retention of Officer Positions
After Grants Expire
Terminated Grants
Supplanting of Local Funds
Recommendations
CONTROLS OVER MONITORING OF
GRANTEESProgram Management By
COPS
Financial Management By OJP
Recommendations
GUIDANCE TO GRANTEESRecommendation
STATEMENT ON MANAGEMENT
CONTROLS
STATEMENT ON COMPLIANCE WITH
LAWS AND REGULATIONS
APPENDIX I - OBJECTIVES, SCOPE
AND METHODOLOGY
APPENDIX II - SCHEDULE OF
DOLLAR-RELATED FINDINGS
APPENDIX III - COPS REPORT FINDINGS BY LOCATION - Large
Grantees
Medium Grantees
Medium Grantees (Cont'd)
Small Grantees
Small Grantees (Cont'd) and
Indian Tribes
APPENDIX IV - PRIOR REPORTS
APPENDIX V  COPS
AND OJPS RESPONSE TO DRAFT REPORT
Hyperlink to Response to Recommendations
Hyperlink to COPS/OJP Comments to OIG's Summary Report
Issued in April 1999
APPENDIX VI  OIGS
ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO CLOSE REPORT
APPENDIX VII 
OIGS ANALYSIS OF COPS/OJP COMMENTS TO OIGS SUMMARY REPORT ISSUED IN APRIL 1999
EXECUTIVE SUMMARY
This program audit reviewed the Department of Justice's Office of Community Oriented
Policing Services' (COPS) and Office of Justice Programs' (OJP) administration of the
$8.8 billion community policing grant programs. After presenting background about the
COPS program, we summarize our findings and recommendations in three major areas: (1)
COPS' ability to meet the President's goal to put 100,000 additional police officers on
the street by FY 2000, (2) COPS' and OJP's monitoring of grantees, and (3) the quality of
guidance provided to grantees to assist them in implementing essential grant requirements.
I. Background
In 1994, the President pledged to put 100,000 additional police officers on America's
streets to promote community participation in the fight against crime. He subsequently
signed the Violent Crime Control and Law Enforcement Act of 1994 (Crime Act), authorizing
the Attorney General to implement over six years an $8.8 billion grant program for state
and local law enforcement agencies to hire or redeploy 100,000 additional officers to
perform community policing.
The Attorney General established the COPS Office to administer the grant programs and
to advance community policing across the country. Management of the COPS grants entails
both program and financial management. The COPS Office is responsible for: (1) developing
and announcing grant programs, (2) receiving and reviewing applications, (3) deciding
which grants to award, and (4) monitoring programmatic issues related to grants. OJP is
responsible for financial management of the COPS program and is charged with: (1)
reviewing pre-award and post-award financial activity, (2) reviewing and approving grant
budgets, (3) providing financial management assistance after COPS has made an award, (4)
disbursing federal funds to grantees, and (5) financial monitoring of COPS awards.
In order to meet the President's goal of putting 100,000 additional police officers on
the street, COPS developed six primary hiring and redeployment grant programs for state
and local law enforcement agencies. Hiring grants fund the hiring of additional police
officers and generally last for three years. Redeployment grants are generally one-year
grants and fund the costs of equipment and technology, and support resources (including
civilian personnel) to redeploy existing officers from administrative duties to the
streets. At the end of the grant periods, the state or local entity is expected to
continue funding the new positions, or continue the redeployment of officers into
community policing that resulted from grant funded equipment and technology purchases.
According to COPS, as of February 1999, COPS and OJP had awarded approximately
$5 billion in grants under the six programs to fund the hiring or redeployment of
more than 92,300 officers, of which 50,139 officers had been hired and deployed to the
streets. COPS obtains its "on the street" officer count by periodically
contacting grantees by telephone.
In April 1999, we issued a report summarizing the results of 149 audits of COPS
grantees that we performed during fiscal years 1997-98 (See "Police Hiring and
Redeployment Grants: Summary of Audit Findings and Recommendations, October 1996 -
September 1998 (No. 99-14)). A response by the COPS Office and OJP to the OIGs
summary report was included as Appendix V. At the time the summary report was released,
the OIG was in the final stage of completing this program audit of the COPS Offices
management of the $8.8 billion COPS grant program. Findings from the 149 individual
grantee audits contributed to several of our findings and recommendations in this program
audit.
The COPS Office strongly disagrees with our reliance on individual grantee audit
reports and our interpretation of these findings in this program audit. Specifically, the
COPS Office asserts that we misinterpreted and/or misapplied the COPS Offices
compliance standards in the areas of supplanting, retention, community policing, and
redeployment. We dispute the COPS Offices disagreements with our audit findings and
this dispute is now the subject of an ongoing audit resolution process chaired by the
Deputy Attorney General.
II. Summary of Findings
A. Progress Towards Goal of 100,000 New Police Officers
The first objective of our audit was to assess COPS' progress in achieving its stated
goal. We found that COPS has not been consistent with respect to when the 100,000
additional officers funded by the Crime Act will be "on the street." During the
course of this audit, COPS officials informed us that their goal is to fund 
i.e., to have approved grant applications for  100,000 new officers by the end of FY
2000. COPS disclaimed a goal of having the 100,000 new officers hired and actually
deployed to the streets by the end of FY 2000, even though this goal has been stated by
COPS Office publications and Department reports, and in speeches by Administration
officials.1
Clearly, the COPS grants will not result in 100,000 additional officers on the streets
by the end of FY 2000. Based on projections by the COPS Office, only 59,765 of the
additional officers will be deployed by the end of FY 2000.
We are also not certain that the COPS Office will be able to "fund" 100,000
officers by the end of FY 2000 as that term is commonly understood. COPS counts an officer
as funded when it approves the grantees' application for award of the grant, instead of
when the grantee actually accepts the grant. While COPS projects in its FY 2000 budget
that it will fund 107,019 additional officers by that time, our audit findings raise
serious questions about whether several thousands of these "funded" officers
that are currently counted toward COPS' goal will ever materialize.
According to COPS, there are considerable delays between the time grants are awarded by
COPS and when new officers are hired and deployed by grantees. In our judgment,
improvements are needed in program management to ensure that 100,000 additional officers
are funded and eventually deployed. We reached our conclusion because:
law enforcement agencies had not accepted approximately $485 million in grant funds
offered by COPS within the designated acceptance period. Nonetheless, COPS counts the
7,722 officers that could be funded by these grants towards its goal. At the time of our
audit, these grants had not been accepted even though an average of more than one year had
passed since they were awarded. In addition, COPS also prematurely counted another 2,526
officers towards its goal of 100,000 new officers, even though the 741 award documents for
these officers had not been provided to the grantee for acceptance. These grants accounted
for another $96 million.
grantees had terminated at least 500 grants for 1,300 officer positions during the first
four years of the COPS program, and additional grants may be terminated during the
remainder of the program. COPS had not deobligated 127 of the 500 grants totaling about
$15.1 million. Moreover, the 373 grants that were deobligated were not deobligated
promptly. Failure to promptly deobligate terminated grants could give the appearance that
COPS is further towards meeting the 100,000 goal than in fact is the case.
in our audits of individual grantees,2 we encountered
a high degree of difficulty in establishing that funds under the Making Officer
Redeployment Effective (MORE) program actually resulted in additional COPS officers on the
streets. Specifically, 78 percent of the 67 grantees we audited with MORE grants could not
demonstrate they had or would redeploy officers from administrative duties to the streets.
One-third of COPS projected goal of 100,000 additional officers depends on actual
redeployment occurring under the MORE program.
grantees will not be required to retain through FY 2000 at least 31,091 of the total
funded officer positions because: (1) COPS and OJP did not require the grantees to retain
the officers under the earliest two grant programs, and (2) for the remaining programs,
COPS only requires the grantees to retain the positions for a minimum of one budget cycle
after the budget cycle in which the grants expire. In addition, while 183 (96 percent) of
the 191 grantees who responded to our random survey during the audit indicated they would
retain the grant positions, 79 (43 percent) of the 183 grantees had not developed a
good faith plan to retain the positions. Further, of the 144 grantees that we audited for
retention planning from October 1996 through September 1998, 13 grantees (9 percent)
indicated they had not or would not retain the grant positions. Of the remaining 131
grantees, 70 (53 percent) had not developed a good faith plan to retain the
positions.
with respect to approximately 41 percent of the 147 grantees that we tested for
supplanting, we found indications that COPS grant funds were used to supplant local funds;
consequently, if a supplanting finding was confirmed with respect to an individual
grantee, that COPS grant would result in fewer, if any, additional officers on the street
than provided for under the terms of the grant.
B. Controls Over Monitoring of Grantees
A variety of regulations require recipients of federal funds be monitored to ensure
proper use of the funds. To this end, the COPS Office and OJP require each grantee to
periodically file various progress reports that are important to help monitor compliance
with grant conditions.3
We determined that many grantees did not submit the required monitoring reports to
COPS. In a review of grant files for a randomly selected sample of 200 grantees, we found
that the following progress reports were not submitted to COPS or OJP at the time of our
review:
PROGRESS REPORT ANALYSIS
TYPE REPORT
REPORTS
REQUIRED
REPORTS NOT
SUBMITTED
PERCENTAGE
NOT SUBMITTED
INITIAL
159
24
15 %
ANNUAL DEPARTMENT
159
62
39 %
OFFICER PROGRESS
159
64
40 %
MORE PROGRESS
38
16
42 %
PHS PROGRESS
3
0
0 %
Source: COPS
These reports are critical for COPS to monitor key grant conditions such as supplanting
and retention of officers. Given the significant number of grantees that had not submitted
the required reports, COPS needs to increase its monitoring efforts to ensure that reports
are submitted.
The COPS Office has increased its efforts to monitor grantees by creating a Grant
Monitoring Division that conducts site visit reviews of selected grantees. While we
encourage such proactive efforts, we found that the reviews did not consistently cover all
grant conditions and were not adequately followed up to ensure that all identified
deficiencies were corrected. During the audit, the COPS Office revised its site visit
protocol, which should address the shortcomings identified in our audit and hired a
Financial Officer to improve the financial controls over the grants.
With respect to financial controls, we found that many grantees either did not submit
the required financial reports to OJP or submitted them late. We reviewed the grant files
and OJP's financial tracking system records for 200 randomly selected grants. For the 200
grants, 2,074 quarterly financial reports should have been submitted to OJP from the
beginning of the grants to the quarter ending December 31, 1997.4
However, the grantees had not submitted 649 (31 percent) of the required reports.
Moreover, the grantees submitted 493 (35 percent) of the remaining 1,425 reports late.
C. Guidance to Grantees
From October 1996 through September 1998, we conducted 149 audits of individual COPS
grantees. Our findings suggest that, in addition to better monitoring by both the COPS
Office and OJP, COPS guidance to grantees could be improved to ensure that critical
grant requirements are understood and met. Specifically, COPS needs to better define its
requirements for non-supplanting, allowable and unallowable costs, redeployment, officer
retention, community policing, and progress reporting. The COPS Office has recognized
these weaknesses and has hired a contractor to develop better guidance to grantees about
these critical issues.
III. Conclusion
In response to the issues raised during the audit, the COPS Office has taken essential
first steps to address identified weaknesses in grant program management and
administration. COPS has not accepted our recommendation to discontinue counting officers
as funded before the grantees accept the grants. However, as noted in the report, the COPS
Office is taking action to follow up on unaccepted grants and to ensure more timely
deobligation of grant funds when agencies do not accept grant awards. The COPS Office also
has: (1) developed clearer guidance for grantees in critical areas of compliance; (2)
increased the level of its monitoring efforts by creating a Grant Monitoring Division,
which conducts site visits to monitor grantee compliance with critical grant requirements;
and (3) hired a Financial Officer to improve its financial controls.
Finally, the COPS Office may have a continuing grant-making role beyond its goal of
deploying 100,000 new officers by 2000. In his FY 2000 budget request, the President
proposed a "21st Century Crime Bill" that includes $1.3 billion for Fiscal Year
2000 and $6.375 billion over the next five years "to help communities build on their
successful efforts begun under the COPS program" by adding an additional 50,000
officers by 2005. The 21st Century Policing Initiative is intended to help communities
hire, redeploy, and retain officers; give law enforcement access to the latest crime
fighting technology; and engage the entire community in preventing and fighting crime.
Whether or not the 21st Century Policing Initiative is approved, a considerable amount
of funds may be left over from the 1994 Crime Act authorization. Of the $8.8 billion
authorized by the Crime Act, COPS estimated that $7.345 billion would be required to award
grants to hire 97,920 officers for an average of $75,000 per officer. OJP's $150 million
Police Hiring Supplement Program was to fund 2,080 officers toward the goal of 100,000
officers. As of February 1999, COPS and OJP had awarded about $5 billion in grants to hire
or redeploy 92,324 officers at an average cost of $54,256 per officer. If the lower cost
per officer trend continues, the total cost required to fund the 107,019 officers through
FY 2000 would be about $5.8 billion. As such, almost $1.7 billion authorized under the
Crime Act may not be needed, and could be used to help fund the 21st Century Community
Policing Initiative if approved by Congress.
1 For example, the
Attorney General's 1994 Annual Report states that "By 2000, all 100,000 [officers]
will be hired and serving on the streets of America." In a July 9, 1998, COPS press
release, the COPS Office described new grants for 473 officers as "the latest wave
under the Clinton Administration initiative to put 100,000 additional officers on the beat
in the year 2000." In addition, a White House press release issued December 14, 1998,
quoted the President as saying, "We have achieved almost 90 percent of our pledge to
put 100,000 additional cops on the street in community policing activities..."
Finally, highlights from the President's FY 1999 budget state that "the final budget
includes funds for 17,000 additional Community Oriented Police Services (COPS) Program
police officers toward the President's goal of 100,000 cops on the beat by 2000."
2 As previously
stated, we issued 149 audit reports of individual COPS grantees from October 1996 through
September 1998. Because about two-thirds of our audits were referred to us by COPS or OJP
as potential problem grantees, they may not be representative of the universe of grantees.
See "Police Hiring and Redeployment Grants: Summary of Audit Findings and
Recommendations, October 1996  September 1998 (No. 99-14)," which is available
on our internet site: http://www.usdoj.gov/oig. Also, see Finding III of this
report for additional details.
3 COPS requires
grantees to file: (1) a Department Initial Report, (2) annual Officer Progress Reports,
(3) a MORE Progress Report (if applicable), and (4) a Department Annual Report. OJP
requires grantees to submit quarterly Financial Status Reports detailing information on
grant obligations and expenditures.
4 OJP's policy is
to withhold payment to grantees if the grantee is delinquent in submitting financial
reports at the time the payment is requested. For the 200 randomly selected grants that we
reviewed during this audit, we found no indication that OJP released funds to grantees
during periods in which the grantees were delinquent in submitting financial reports.
#####